           DOD PAYMENTS TO THE U.S. TREASURY
             FOR WATER AND SEWER SERVICES
          PROVIDED BY THE DISTRICT OF COLUMBIA


Report No. D-2001-053               February 15, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
WASA                  Water and Sewer Authority
WHS                   Washington Headquarters Services
                       Office of the Inspector General, DoD
Report No. D-2001-053                                            February 15, 2001
  (Project No. D2001FA-0070.000)

        DoD Payments to the U.S. Treasury for Water and Sewer
             Services Provided by the District of Columbia

                                   Executive Summary

Introduction. The audit was required by Public Law 106-554, the Consolidated
Appropriations Act of 2001 (Public Law 106-554). Public Law 106-554 requires the
inspectors general of each agency to report to the House and Senate Appropriations
Committees on the promptness of each agency’s payments of bills for water and sewer
services received from the District of Columbia. The inspector general reports are to
be submitted to the Committees within 15 days of the end of each quarter. The District
of Columbia Water and Sewer Authority provides both water supply and waste water
treatment services to Federal agencies and DoD Components within the National
Capital Region. The U.S. Treasury is the collection agent for Federal agencies and
DoD Components’ water and sewer payments, with the U.S. Treasury submitting a
single payment to the Water and Sewer Authority. The DoD Components, composed
of 17 separate installations, sites, and organizations, are required to make quarterly
payments to the U.S. Treasury for the services provided. This report is the first in a
series of quarterly reports and discusses the DoD payments for water and sewer
services rendered by the District of Columbia from FY 1990 through the first quarter of
FY 2001. Subsequent reports will discuss the promptness and completeness of
quarterly payments made by the DoD Components that receive water and sewer
services from the District of Columbia.

Objectives. The overall audit objective was to determine the promptness of
DoD payments to the U.S. Treasury for water and sewer services provided by the
Government of the District of Columbia. We initially tried to analyze quarterly
DoD payments from the second quarter of FY 1990 up to and including the first quarter
of FY 2001. However, we were not provided sufficient information from
DoD Components and the U.S. Treasury to adequately determine the accuracy and
timeliness of the billings and payments by February 15, 2001.

Results. Based on our review of limited information, DoD Components within the
National Capital Region paid $68 million of the $96.2 million billed by the
U.S. Treasury for water and sewer services received from the District of Columbia
from FY 1990 through the first quarter of FY 2001. Generally, DoD Components
contend that they did not make complete payments because the Water and Sewer
Authority did not use actual or accurate usage data for water and sewer bills provided
by the U.S. Treasury. As a result, DoD Components in the National Capital Region
apparently did not pay the U.S. Treasury $28.2 million for water and sewer billings for
the 12-year period ending the first quarter of FY 2001. We will perform additional
audit work on this issue for our next report due on April 15, 2001. See the Finding
section for details.

Management Comments. We provided a draft of this report on February 6, 2001.
Although management comments were not required, we received comments from the
Washington Headquarters Services too late to be included in the final report. The
Director of Budget and Finance provided technical corrections to the report and stated
that Washington Headquarters Services was legally prohibited from paying disputed
water and sewer bills.




                                           ii
Table of Contents

Executive Summary                                  i

Introduction
     Background                                   1
     Objective                                    1

Finding
     DoD Payments to the U.S. Treasury            2

Appendixes
     A. Audit Process
          Scope and Methodology                    6
     B. Water and Sewer Authority DoD Customers    8
     C. FY 2000 Billing and Payment Process        9
     D. FY 2000 U.S. Treasury Invoice             10
     E. Report Distribution                       12
Background
    The audit was required by Public Law 106-554, the Consolidated Appropriations Act
    of 2001 (Public Law 106-554). Public Law 106-554 requires the inspectors general of
    each Federal agency that receives water and sewer services from the District of
    Columbia to report to the Congressional Appropriations Committees on the promptness
    of payments within 15 days of the end of each quarter. This report is the first in a
    series of quarterly reports and discusses our limited review of DoD payments for water
    and sewer services rendered by the District of Columbia from FY 1990 through the
    first quarter of FY 2001. Subsequent reports will discuss the promptness and
    completeness of DoD payments to the U.S. Treasury from the DoD Components that
    receive water and sewer services from the District of Columbia.

    The District of Columbia Water and Sewer Authority. The District of Columbia
    provides both water supply and waste water treatment services to Federal agencies and
    DoD Components within the National Capital Region. Under the District of Columbia
    Public Works Act of 1954, the Federal government is to receive water and sewer
    services from the District of Columbia, and the District of Columbia was paid with an
    annual lump sum in the District of Columbia Appropriations Act. The District of
    Columbia Appropriations Act of 1990 changed the payment process by designating the
    U.S. Treasury as the collection agent for the Federal agencies’ water and sewer
    payments, with the U.S. Treasury remitting a single payment to the District of
    Columbia. In October 1996, the District of Columbia City Council transferred water
    and sewer responsibilities from the Department of Public Works to the Water and
    Sewer Authority (WASA). WASA provides meter readings and annual estimated
    billings to the U.S. Treasury for water and sewer services provided to the Federal
    agencies and DoD Components. See Appendix B for a list of DoD customers receiving
    WASA services.

    U.S. Treasury. The U.S. Treasury has the responsibility for paying WASA for water
    and sewer services it provides to Federal agencies, such as DoD Components. Based
    on meter readings and estimated bills the U.S. Treasury receives from WASA, the
    U.S. Treasury provides invoices with estimated quarterly payment amounts to the
    Federal agencies and DoD Components for their estimated water and sewer usage. The
    DoD Components, composed of 17 separate installations, sites, and organizations, are
    required to make quarterly payments to the U.S. Treasury for those billings.

Objective
    The overall audit objective was to determine the promptness of DoD payments to the
    U.S. Treasury for water and sewer services provided by the Government of the District
    of Columbia. We initially tried to analyze quarterly DoD payments from the second
    quarter of FY 1990 up to and including the first quarter of FY 2001. However, we
    were not provided sufficient information from DoD and the U.S. Treasury to
    adequately determine the accuracy and timeliness of the billings and payments by
    February 15, 2001. Appendix A discusses the audit scope and methodology.


                                          1
            DoD Payments to the U.S. Treasury
            Based on our review of limited information, DoD Components within the
            National Capital Region paid $68 million of the $96.2 million billed by the
            U.S. Treasury for water and sewer services received from the District of
            Columbia from FY 1990 through the first quarter of FY 2001.
            DoD Components did not make complete payments because they contend that
            the Water and Sewer Authority did not use actual or accurate usage data for
            water and sewer bills provided by the U.S. Treasury. As a result,
            DoD Components in the National Capital Region apparently did not pay the
            U.S. Treasury approximately $28.2 million for water and sewer billings for the
            12-year period ending the first quarter of FY 2001.

Water and Sewer Payment Legislation
     1990 Legislation. Public Law 101-168, the District of Columbia Appropriations Act of
     1990 (Public Law 101-168), changed the payment method for Federal agencies’ water
     and sewer consumption within the District of Columbia. Public Law 101-168 shifted
     responsibility for payment of water and sewer bills to the respective Federal agencies.
     Under Public Law 101-168, the U.S Treasury serves as a collection agent, receiving
     payments from individual agencies for their share of the estimated water and sewer
     usage, and remitting a single payment to the District of Columbia. Funds for water and
     sewer services come through the agencies' own operating budgets and their respective
     appropriations bills. WASA is required to submit a budget to the Office of
     Management and Budget that includes an estimate of the cost of services for the Federal
     agencies. WASA submits the bills to the U.S. Treasury for the Federal agencies and
     DoD Components within the National Capital Region. The Federal agencies and
     DoD Components are required to make quarterly payments to the U.S. Treasury
     account entitled “Federal Payment for Water and Sewer Services” on the first day of
     each quarter. The U.S. Treasury is to pay WASA from this account on the second day
     of each quarter. If there are insufficient funds in the account, the Secretary of the
     Treasury is to make payments from available funds, subject to reimbursement by the
     user agencies.

     2001 Legislation. Public Law 106-554 amended the process used by the Federal
     agencies to make payments to the U.S. Treasury. The U.S. Treasury is now authorized
     and directed to draw down funds from Federal agencies and provide those funds to
     WASA by the second day of each quarter when agencies do not forward timely
     payments of amounts billed by WASA. Public Law 106-554 also directs that the draw
     down apply to current billed amounts and retroactively to past due amounts dating back
     to FY 1990.

Billing Process for Water and Sewer Services
     WASA provides meter readings and annual estimated billings to the U.S. Treasury for
     water and sewer services for Federal agencies and DoD Components within the
     National Capital Region. Based on the information the U.S. Treasury receives from
     WASA, the U.S Treasury prepares invoices for the Federal agencies and
                                            2
    DoD Components and pays WASA one-fourth of the estimated billings by the second
    day of each quarter. Generally, in the first quarter of each fiscal year,
    DoD Components receive annual invoices from the U.S. Treasury that show the
    estimated bill for the fiscal year, including adjustments based on actual usage from
    3 years prior, and the quarterly payment amount due to the U.S. Treasury on the first
    day of each quarter. To illustrate, on April 15, 1998, WASA prepared a bill that
    contained an estimate of anticipated water and sewer usage for use in the FY 2000
    Presidents budget. The bill included adjustments for actual water and sewer usage
    variances in FY 1997. The bill was sent to the U.S. Treasury for distribution to the
    Federal agencies and DoD Components. When the Federal agencies and
    DoD Components receive the bills from the U.S. Treasury, they are expected to
    promptly pay the amounts as billed. See Appendix C for a flowchart of the billing and
    payment process.

    The U.S. Treasury bills each agency based on estimates the U.S. Treasury receives
    from WASA. An example of a WASA-generated estimate is included in Appendix D,
    which is a copy of the FY 2000 U.S. Treasury invoice sent to Bolling Air Force Base,
    Washington, D.C. The invoice, dated January 28, 2000, states that Bolling Air Force
    Base owes an estimate of $10.56 million for FY 2000, with an initial payment due on
    January 4, 2000. This FY 2000 invoice estimate of $10.56 million includes a FY 1997
    actual usage variance of $2.01 million, an unbilled amount for FY 1999 estimated
    usage of $4.71 million, and a FY 2000 estimated amount of $3.84 million; and a
    FY 2001 estimate of $1.28 million. This invoice demonstrates the 3-year lag between
    estimated and actual amounts billed. Also, this invoice is indicative of the difficulties
    encountered with the billing process for estimated water and sewer services.

DoD Payments
    The limited information we were able to obtain shows that the U.S. Treasury has billed
    DoD Components in the National Capital Region $96.2 million for water and sewer
    services for the period FY 1990 through the first quarter of FY 2001. The
    DoD Components made payments of $68 million for billings received during the same
    period. The following chart provides a summary of the billing and payment
    information by DoD Component.




                                            3
                              U.S. Treasury Billings and Payments
                                  For FYs 1990 through 2001
                                         (in thousands)

    DoD                  Amount Billed         Payment Received
   Component             Per U.S.Treasury1     Per U.S. Treasury      Outstanding
   Army2                    $ 6,752                 $ 6,095            $ 657
   Navy3                     53,115                  43,828              9,287
   Air Force4                24,249                  14,764              9,485
   WHS5                      12,077                   3,275              8,802

          Total             $96,193                $67,962             $28,231
   1
     The amounts include one-fourth of the estimated bills for FY 2001
   2
     Includes Fort McNair, Walter Reed Army Medical Center, National War College,
      National Defense University Center
   3
     Includes Washington Navy Yard, Anacostia Navy Station, Naval Observatory,
      Navy Memorial, Marine Barracks, Naval Research Laboratory, and the Vice
      President’s Residence
   4
     Includes Andrews Air Force Base and Bolling Air Force Base
   5
     Washington Headquarters Services (WHS) includes the Pentagon, Arlington Cemetery
      and Fort Myer because they share the same meter and are not billed separately.


       Because of the limited U.S. Treasury information, we could not verify or substantiate
       the amounts the U.S. Treasury reported as outstanding for DoD Components.

DoD Billing Issues
       DoD Components contend that the water and sewer bills provided by the U.S. Treasury
       were not based on actual or accurate usage. For example, WASA used two water
       meters shared among three DoD installations (the Pentagon, Arlington Cemetery, and
       Fort Myer) and two non-DoD facilities, including Ronald Reagan National Airport, to
       determine DoD water and sewer usage. WASA reportedly sent the same meter
       readings and billing information to all of these users. One of the DoD installation
       representatives questioned the accuracy and validity of all bills for prior, current, and
       future years.

       As an alternative measure for the example above, the DoD installation representatives
       have proposed, for those locations that have sewer meters, that the sewer meter
       readings be used to determine water consumption. WASA disagreed because its
       engineers believe sewer meter readings are an unreliable indication of water
       consumption. In an attempt to provide a solution, WHS, the administrative
       organization for the Pentagon, is installing new water meters for the three DoD
       installations listed in the example above. The meters are expected to be installed by
       March 1, 2001. WHS intends to use readings from the new water meters to provide the
       U.S. Treasury with a basis for allocating water usage to those DoD Components that
                                                4
   share the financial responsibility for payment of the water services provided through the
   Virginia shared meters. In addition, WHS plans to use this data to estimate prior year
   water usage and billing information, to include development of a methodology to
   calculate the DoD and non-DoD amounts in arrears. We plan to review this
   methodology and its application in more detail. Also, we will attempt to obtain more
   billing and payment information to assess the promptness of payments from
   DoD Components. The results of these efforts will be reported in future quarterly
   reports.

Summary
   Since FY 1990, DoD Components have not paid approximately $28.2 million to the
   U.S. Treasury for water and sewer services. DoD believes that it is fulfilling a fiscal
   responsibility to only pay for services received. When the U.S. Treasury distributes
   billings, it is not uncommon for disputes to arise. According to DoD, the
   U.S. Treasury’s ability to resolve those disputes is limited. DoD has substantial
   disagreements that are still unresolved with WASA and the U.S. Treasury. DoD
   accounting officials told us that the retention period for original accounting vouchers is
   6 years and 3 months. As a result, we are concerned that adequate source
   documentation may not exist to resolve the billing and payment disagreements. We will
   review this entire process in more detail and report on it in future quarterly reports.




                                           5
Appendix A. Audit Process

Scope and Methodology
    Work Performed. We reviewed DoD Components’ billing and payment information
    from FY 1990 through the first quarter of FY 2001 for water and sewer services
    provided by WASA. Specifically, we reviewed spreadsheets of the U.S. Treasury
    billing and payment information for DoD Components from FYs 1990 through 2000, as
    provided by the Office of the Under Secretary of Defense (Comptroller). We reviewed
    available invoices received by DoD Components from the U.S. Treasury to establish
    the amounts billed for water and sewer services. We also reviewed available DoD
    disbursement vouchers submitted to the U.S. Treasury from FY 1990 through the first
    quarter of FY 2001, to determine the amounts paid by DoD Components. For the
    12-year period, we obtained available water and sewer service invoices from the
    U.S. Treasury totaling $96.2 million and DoD payments made to the U.S. Treasury
    totaling $68 million. We did not rely on computer-processed data for our review of
    billing and payment data from DoD Components. The audit was a congressional
    request, therefore we did not review the management control program. See
    Appendix B for a list of the DoD Components receiving water and sewer services from
    WASA.

    Limitation to Scope. Our review was limited because the U.S. Treasury did not
    provide a timely response to our requests for documentation to support its billing and
    payment information. In addition, we could not obtain complete payment information
    from the Defense Finance and Accounting Service or the DoD Components for the
    12-year period because many of the original documents exceeded the standard retention
    period of 6 years and 3 months.

    DoD-Wide Corporate Level Government Performance and Results Act Goals. In
    response to the Government Performance and Results Act, the Secretary of Defense
    annually establishes DoD-wide corporate level goals, subordinate performance goals,
    and performance measures. This report pertains to achievement of the following goal
    and subordinate performance goal:

           • FY 2001 Corporate-Level Goal 2: Prepare now for an uncertain future by
              pursuing a focused modernization effort that maintains U.S. qualitative
              superiority in key warfighting capabilities. Transform the force by
              exploiting the Revolution in Military Affairs, and reengineer the Department
              to achieve a 21st century infrastructure. (01-DoD-2)

           • FY 2001 Subordinate Performance Goal 2.5: Improve DoD financial and
              information management. (01-DoD-2.5)

    General Accounting Office High-Risk Area. The General Accounting Office has
    identified several high-risk areas in the DoD. This report provides coverage of the
    Financial Management high-risk area.


                                           6
Audit Period and Standards. We performed this financial-related audit in
January 2001 in accordance with auditing standards issued by the Comptroller General
of the United States, as implemented by the Inspector General, DoD.

Contacts During the Audit. We visited or contacted individuals and organizations
within the DoD and within the Department of the Treasury, the U.S. General
Accounting Office, and the District of Columbia Water and Sewer Authority. Further
details are available upon request.

Prior Coverage. No prior audit coverage has been conducted on this subject within the
last 5 years.




                                      7
Appendix B. Water and Sewer Authority
            DoD Customers
       According to the District of Columbia WASA, the list below identifies the
       DoD Components for which WASA provides estimated billings to the U.S. Treasury
       for water and sewer services.


Army
Arlington Cemetery
Walter Reed Army Medical Center
Fort McNair
Fort Myer

Navy
Navy Memorial
Vice President’s Residence
Naval Observatory
Marine Corps Barracks, 8th & I
Washington Navy Yard
Anacostia Naval Station
Naval Research Laboratory

Air Force
Andrews Air Force Base
Bolling Air Force Base

Other Defense Organizations
Washington Headquarters Services
National Imagery and Mapping Agency
National War College
National Defense University Center




                                           8
Appendix C. FY 2000 Billing and Payment Process



          District of                    April 15, 1998                          Office of
                                         estimated bill sent to
        Columbia Water                   Office of Management                   Management
          and Sewer                      and Budget based on
                                         FY 1997 actual usage.
                                                                                and Budget
           Authority




FY 2000 estimated                  One-fourth payment of
bill sent, including               the FY 2000 estimate
adjustment for 1997                sent on second day of
actual usage.                      each quarter.




                  U.S. Treasury


     FY 2000 estimated              One-fourth payment
     bill sent, including           for FY 2000 sent on
     adjustment for                 first day of each
     1997 actual usage.             quarter.




                                          17 DoD Components:
1.     Walter Reed Medical Center                                 10.   Vice President Residence
2.     Marine Barracks                                            11.   Naval Observatory
3.     Washington Headquarters Services                           12.   Washington Navy Yard
4.     Fort McNair                                                13.   Anacostia Naval Station
5.     Fort Myer                                                  14.   Naval Research Laboratory
6.     National War College                                       15.   Andrews Air Force Base
7.     National Defense University Center                         16.   Bolling Air Force Base
8.     National Imagery and Mapping Service                       17.   Navy Memorial
9.     Arlington Cemetery




                                                    9
Appendix D. FY 2000 U.S. Treasury Invoice




                       10
11
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Defense Organizations
Director, Defense Finance and Accounting Service
Director, Washington Headquarters Services

Non-Defense Federal Organizations
Office of Management and Budget
Inspector General, Department of the Treasury




                                            12
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology, Committee
  on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform




                                          13
Audit Team Members


The Finance and Accounting Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector General,
DoD, who contributed to the report are listed below.

 F. Jay Lane
 Salvatore D. Guli
 Charles J. Richardson
 Ronald W. Hodges
 Michael L. Davitt
 Lorin T. Pfeil
 Robert P. Goldberg
 Cheryl D. Smith
 Pauletta P. Pitter
 Yalonda N. Blizzard
 Robert T. Goodwin
 Monica Noell
